 U.S. Agency for
  INTERNATIONAL
   DEVELOPMENT

Washington, D.C.


March 22, 2002

MEMORANDUM FOR M/AS, Roberto J. Miranda

 FROM:             IG/A/ITSA, Melinda G. Dempsey

 SUBJECT:          Audit of USAID’s Printing and Graphic Services
                   (Report No. A-000-02-002-P)

This memorandum is our report on the subject audit. In finalizing the report,
we considered your comments on the draft report. Your comments are
included in Appendix II.

This report contains one recommendation for your action. Based on the
information provided by your office, a management decision has been
reached on this recommendation. A determination of final action for this
recommendation will be made by the Office of Management Planning and
Innovation (M/MPI/MIC) when planned corrective actions are completed.

I appreciate the cooperation and courtesy extended to my staff during the
audit.




                                                                                1
Table of   Summary of Results........................................................................... 3
Contents   Background ........................................................................................ 3

           Audit Objective.................................................................................. 5

           Audit Findings ................................................................................... 5

                    Monitoring and Measuring
                    Systems Were Inadequate or Non-Existent............................. 5

                    Basic Internal Controls Were Lacking .................................... 9

           Management Comments and Our Evaluation ....................................10

           Appendix I - Scope and Methodology...............................................11

           Appendix II - Management Comments..............................................12




                                                                                                                   2
Summary of                 The General Accounting Office’s “Standards for Internal Controls in the
Results                    Federal Government” (November 1999) state that internal control1 is an
                           integral component of an organization’s management. Internal control
                           should provide reasonable assurance that the objectives of an agency are
                           being achieved in the effectiveness and efficiency of operations including
                           the use of the entity's resources. [page 7] The Standards further provide
                           several examples [page 7] of control activities that are common to all
                           agencies including the following:

                           •   reviews by management at the functional or organizational level,
                           •   establishment and review of performance measures and indicators,
                           •   segregation of duties,
                           •   proper execution of transactions and events,
                           •   accurate and timely recording of transactions and events, and
                           •   appropriate documentation of transactions and internal control.

                           The audit was designed to determine whether the Office of Administrative
                           Services had a management control system for monitoring and measuring
                           the economy and efficiency of printing and other services provided to
                           USAID offices. We determined that the Office did not have an adequate
                           system for monitoring and measuring the economy and efficiency of its
                           printing services. [page 5] Furthermore, the minimal records available were
                           not reliable. A review of the task orders revealed incomplete information
                           and/or inefficient operations. [page 8] In addition, the Office was operating
                           its printing services without basic documented internal controls, such as
                           those illustrated above by the General Accounting Office, thereby exposing
                           itself to errors or other irregularities. [page 9] This audit report has one
                           recommendation to establish a documented internal control system.
                           [page 10]

                           The Office of Administrative Services agreed with the report, is planning to
                           implement the recommendation, and has already started corrective actions.
                           Based on the information provided by the Office, a management decision
                           has been reached on Recommendation No. 1. [page 10]


Background                 USAID's Automated Directives System, Chapter 512.3, states that the
                           Bureau for Management, Office of Administrative Services is responsible for
                           providing printing and other services to USAID/Washington and upon
                           request to overseas missions. The fiscal year 2000 USAID operating expense
                           budget for printing and other services was approximately $468,000.
 1
  According to GAO’s “Standards for Internal Control in the Federal Government” (page 4), the terms internal control
 and management control are synonymous. Both terms are used interchangeably in the report.



                                                                                                                       3
The Office of Administrative Services provides printing and graphics
services through two direct-hire staff and contracts awarded to three
contractors. One contractor provides in-house printing services, while the
other two provide printing services that cannot be supplied by the in-house
contractor. The in-house contractor manages and produces in-house printing
and graphic services in the Ronald Reagan Building in Washington DC.
This current contract was awarded in fiscal year 1998, with options for four
additional years, for a total cost not to exceed $1.3 million. The fiscal year
2001 option provides services at a total cost not to exceed $272,168.
Printing services that cannot be produced in-house are procured with task
orders under two additional outside contracts. The cost of the two contracts
could not exceed $428,656 for the most recent one-year period.




Facilities and equipment for in-house printing services at USAID/Washington




                                                                                 4
Audit Objective   As part of its fiscal year 2001 audit plan, the Information Technology and
                  Special Audits Division performed an audit of printing and other services
                  provided by the Office of Administrative Services to answer the following
                  audit objective:

                  Did the Bureau for Management, Office of Administrative Services,
                  have a management control system for monitoring and measuring the
                  economy and efficiency of printing and other services provided to
                  USAID offices?

                  Appendix I describes the audit’s scope and methodology.



Audit Findings    Did the Bureau for Management, Office of Administrative Services,
                  have a management control system for monitoring and measuring the
                  economy and efficiency of printing and other services provided to
                  USAID offices?

                  The Office of Administrative Services did not have an adequate
                  management control system for monitoring and measuring the economy
                  and efficiency of printing and other services. Furthermore, the Office of
                  Administrative Services was not operating under written internal control
                  procedures.

                  Monitoring and Measuring
                  Systems Were Inadequate or Non-Existent

                  GAO standards for internal controls are intended to provide assurance that
                  operations are effective and efficient. However, the Office of
                  Administrative Services did not have adequate management control
                  systems for monitoring and measuring the economy and efficiency of its
                  printing and other services. As a consequence, the Office did not know if
                  its printing and related services were operating economically and
                  efficiently. The Office noted that these conditions had developed due, in
                  great part, to a staffing shortage. Nevertheless, we also believe that
                  management has not provided sufficient oversight of its printing
                  operations for the period under audit.

                  The Office of Administrative Services had limited means to monitor and
                  measure the economy and efficiency of its printing operations. Initially,
                  requests for printing and other services came to the print shop by way of
                  various job request forms (USAID forms, standard U.S. government
                  forms, memorandums, emails, unofficial request forms, etc.) If the



                                                                                               5
printing or other service was to be completed by the in-house contractor,
the job request was generally date-stamped when received and provided a
control number, which was written on the job request form. If the printing
or other service was to be completed by one of the two outside contractors,
the job request was generally date-stamped when received and converted
to a task order, which included a control number and cost data.

Prior to April 2000, the Office had used a computer-based information
system to record job requests. Since April 2000, a record of these job
requests had been maintained by writing only the control numbers
consecutively on a tally sheet (see example below), which is attached to
the inside wall of an unoccupied cubicle. When the printing or other
service jobs were completed, the control number is crossed off, thereby
indicating that the job was completed. After the printing or other service
was completed, the job request forms were placed in stacks in an empty
cubicle or in staff desk drawers, without an organized filing system. In
regard to customer satisfaction, although all three printing contracts
required customer surveys, customers were not systematically surveyed to
obtain feedback of their satisfaction with the completed jobs. The Office
did keep a file of unsolicited commendations for jobs that were completed,
but there was no documentation of solicited customer satisfaction.




                                                                              6
Tally sheet with control numbers for recording printing and other services


The General Accounting Office’s “Standards for Internal Controls in the
Federal Government” (November 1999) state that internal control should
provide reasonable assurance that the objectives of an agency are being
achieved in the effectiveness and efficiency of operations including the
use of the entity's resources. The Standards provide several examples of
control activities that are common to all agencies including the following:

•   reviews by management at the functional or organizational level,
•   establishment and review of performance measures and indicators,
•   segregation of duties,
•   proper execution of transactions and events,
•   accurate and timely recording of transactions and events, and
•   appropriate documentation of transactions and internal control.

In contrast to these standard control activities, the print shop’s general
operating arrangement provided a very limited and inadequate basis for



                                                                              7
monitoring and no basis for measuring economy and efficiency. As a
consequence, given the inadequate monitoring and measuring systems, the
Office of Administrative Services did not know if its printing and related
services were operating economically and efficiently. For example, the
Office of Administrative Services did not:

•   require regular operating reports for management review;
•   compile data on status, workload, users, timeliness, cost, and/or
    performance;
•   compile data on accountability;
•   appropriately document transactions and internal control;
•   file records allowing for retrieval; and
•   survey users to determine satisfaction.

Furthermore, the minimal records maintained by the Print Shop were not
reliable. Our review of the 40 task orders for the outside printing
contractors (task orders were not prepared for the in-house contractor)
during calendar year 2000 revealed incomplete information and/or
inefficient operations. For example:

•   60 percent had no indication when the user had requested the services,
•   98 percent had no indication when the task order was completed,
•   23 percent were not approved for processing until after the date that
    the jobs were to have been completed,
•   87 percent of the task orders (13) that were also recorded in the
    discarded computer-based system had different data recorded in two
    data fields (“date received” and “date required”) than the information
    on the original task order documents,
•   1 of the 4 task orders that were marked expedite took more than two
    months to complete, and
•   12 of the 16 task orders, which indicated when the task order had been
    initiated, were not officially approved for processing by the print shop
    manager until two weeks later or longer.

During our audit fieldwork, the Office agreed with our preliminary
findings and noted that these conditions had developed due, in great part,
to a staffing shortage. Nevertheless, we also believe that management has
not provided sufficient oversight of its printing operations for the period
under audit. As a consequence, the Office did not know if its printing and
related services were operating economically and efficiently. Our
recommendation to address the inadequate monitoring and measuring
control systems is stated at the end of the following section of the audit
report.




                                                                               8
Basic Internal Controls Were Lacking

In addition to the inadequate monitoring and measuring systems, the
Office was operating the Print Shop without written internal controls.
Near the end of our audit fieldwork, we were provided a copy of standard
operating procedures for printing and graphics services, dated 1994.
However, the Office was neither operating under these procedures nor
aware of their existence for much of our fieldwork.

The General Accounting Office’s “Standards for Internal Controls in the
Federal Government” (November 1999) state that internal control is an
integral component of an organization’s management. Internal control
should provide reasonable assurance that the objectives of an agency are
being achieved in the effectiveness and efficiency of operations including
the use of the entity's resources. Furthermore, an internal control structure
provides management with reasonable, but not absolute, assurance that
assets are safeguarded against loss from unauthorized use or disposition
and that transaction are recorded properly. In addition, management
implements controls to reasonably ensure that a program can meet its
objectives; valid and reasonable data are obtained, maintained, and fairly
disclosed in reports; and resource use is consistent with laws and
regulations. Because of inherent limitations in any internal control
structure, errors or irregularities may still occur and not be detected.

However, without an adequate set of documented internal controls, such as
for printing services, we believe that the potential for errors or other
irregularities are much greater. We did not discover specific cases of
waste, loss, unauthorized use, or misappropriation for the items tested
within our audit. Nonetheless, our review was not sufficiently
comprehensive to provide assurance that such acts were not occurring. To
provide such assurance, we would have been required to reconstruct the
Office’s disorganized printing job records for the period under audit.
Nevertheless, we believe that the Office of Administrative Services lacks
an adequate management control system to detect errors, fraud and
mismanagement of USAID printing services.

During our audit fieldwork, the Office agreed with our preliminary
findings and had started the process of developing an adequate set of
internal controls. The Office further noted that these conditions had
developed due, in great part, to a staffing shortage. Nevertheless, we also
believe that management has not provided sufficient oversight of its
printing operations for the period under audit. Accordingly, the Office
needs to address these basic internal control weaknesses.




                                                                                9
                        Recommendation No. 1: We recommend that the Bureau
                        for Management, Office of Administrative Services,
                        establish a documented internal control system for its
                        printing and related services, including a management
                        control system for monitoring and measuring its economy
                        and efficiency.



Management       The Office of Administrative Services agreed with the report, is planning to
Comments and     implement the recommendation, and has already started corrective actions.
Our Evaluation   Based on the information provided by the Office, a management decision
                 has been reached on Recommendation No. 1.




                                                                                                10
                                                                                      Appendix I


Scope and     Scope
Methodology
              The Office of the Inspector General, Information Technology and Special
              Audits Division, in Washington conducted an audit, in accordance with
              generally accepted government auditing standards, to determine if the Office
              of Administrative Services had a management control system for monitoring
              and measuring the economy and efficiency of printing and other services
              provided to USAID offices. Our audit reviewed operations for calendar year
              2000 with the exception of credit card purchases for graphic arts services
              because these purchases were covered by a separate audit. The Office of
              Administrative Services was operating its printing services without
              documented internal controls. Thus, we could not review documented
              internal controls. Near the end of our audit fieldwork, we were provided a
              copy of standard operating procedures for printing and graphics services,
              dated 1994. However, the Office was neither operating under these
              procedures nor aware of their existence for much of our fieldwork. Because
              the Office was not operating under these procedures, we did not assess their
              applicability or adequacy. Nevertheless, we did receive, and subsequently
              review, oral descriptions of working procedures used by the print shop. The
              audit was conducted at USAID headquarters in Washington, D.C. from
              March 10, 2001, to July 31, 2001.

              Methodology

              We interviewed officials as well as reviewed and tested documentation of
              work performed by the print shop for calendar year 2000. These documents
              consisted of three contracts; job requests; task orders to contractors; and a
              computer generated listing of work performed from October 1, 1999,
              through April 25, 2000, when the computer information system was
              discontinued. We also reviewed 40 task orders for printing and other
              services provided by outside contractors during calendar year 2000. Given
              the absence of an organized filing system (forms stacked in an empty cubicle
              or in staff desk drawers), we had no basis to develop a universe from which
              to sample task orders for printing services provided by outside contractors.
              Consequently, we requested all the task orders for calendar year 2000. From
              the 72 task orders provided by Office of Administrative Services staff for
              calendar year 2000, we eliminated 32 that fell outside the period under audit,
              calendar year 2000. We reviewed 100 percent of the remaining 40 task
              orders. Although we intended to review customer service, we did not
              because no customer surveys had been conducted by the print shop.




                                                                                               11
                                                                                Appendix II



Management
Comments




             MEMORANDUM

             TO:             Melinda Dempsey, IG/A/ITSA

             FROM:           Roberto J. Miranda, M/AS/OD

             SUBJECT:        Draft Report - Audit of USAID's Printing and
                             Graphic Services (Report A-000-02-XXX-p)

             INTRODUCTION

                     The Office of Administrative Services (M/AS) is in
             agreement with the IG audit findings that a good management
             control system for monitoring and measuring the efficiency of the
             printing services needs to be put in place.

             DISCUSSION/PLAN OF IMPLEMENTATION

                The Director of Administrative Services (M/AS/OD) is seeking
             to find a quick but reliable method for both maintaining records
             and establishing performance benchmarks. The Chief of the
             Consolidated Property Division (M/AS/CPD) will develop the
             required internal controls for the management of this section and
             provide more hands-on oversight of the printing operations.

                 M/AS has developed a customer survey to measure customer
             satisfaction in the property section of M/AS/CPD and will now
             focus on the development of one for the printing and graphics
             areas. Additionally, the Division Chief will focus on identifying a
             software system to remedy several other shortcomings.
             Specifically, a user-friendly system is needed for the following: to
             compile status of printing jobs and workload volume; to properly
             identify the customer base for follow-up; to develop benchmarks
             for measuring timeliness of the services provided; and to compile
             basic cost information and staff performance.             A simple
             spreadsheet application can meet these expectations. This system



                                                                                       12
will allow for better control for monitoring and measuring
efficiency. In 1999, M/AS/CPD explored various methods for
strengthening the operations. M/AS/CPD worked closely with the
Department of Commerce (DOC) to establish a shared system for
printing and graphics services. M/AS/CPD developed a MOU for
the DOC to provide these services to USAID. Unfortunately,
subsequent organizational events within USAID prevented
completion of this initiative, in particular the loss of the
administrative clerk for the printing division.

   The Chief of M/AS/CPD took several steps to address the
internal control weaknesses as a result of the audit findings as
discussed in para. 3 and per suggestions for improvement by the IG
audit team. He met with the USAID M/OP Contracting Office to
investigate all of the necessary requirements in order to acquire
additional technical and administrative support through the current
printing contract, Associated Management Services, Inc. (AMSI).
Also, the Chief met with TOSS, a Fairfax, Virginia company that
designs computer software used in the printing industry to
track/monitor status of printing projects. Other federal agencies,
including FBI, DOC, EPA, and Customs are successfully using this
particular software.     At the request of M/AS/CPD, TOSS is
developing a cost proposal for our consideration. M/AS/OD will
review this particular software and others that may be available on
the market.

   M/AS/CPD will meet with AMSI to discuss the current scope
of work and requirements required to amend the contract. These
steps include the following:

   a) the development of a file system for easy and quick retrieval
of printing records;

  b) a method to record the project status and timeliness of
completion;

   c) the source of the printing project and the point of contact as
part of the process to assign control numbers for better tracking.

        Based on this analysis, M/AS/OD concludes AMSI or a
similar vendor has the ability to quickly provide the additional
services and install the standard controls required to eliminate
errors and to improve efficiency of operations.




                                                                       13
   M/AS/OD plans to introduce the new program in early March.
Once the program is in place, the Division Chief, the printing
officer and the contractor will meet monthly to review the
workload and project status. The printing officer will provide a
written report to the Division Chief for management review. A
customer survey will be developed and distributed by April to
assess the level of customer satisfaction. M/AS/CPD will revise
Standard Operating Procedures developed in 1994 for obtaining
printing and graphic work within USAID.

CONCLUSION

   In closing, M/AS/OD appreciates the professional assistance,
courtesy and help of the IG staff, particularly as we work to
implement your recommendation for improving the monitoring of
the printing program. Additional suggestions can only benefit the
program operations.




                                                                    14
